L

. r
P

No.
/,
-O?

r~V
c_j

n

<G> C

3

IN THE
SUPREME COURT OF THE UNITED STATES
\
•»

\

n

i-

a^n

hi; iff r< y! -I;

I

V.fV i'j ul J 'w3

l«j

»;*
\
k_i

BRIAN D. SMITH, PETITIONER,Pro Se,

vs.

STATE OF MONTANA, et. al., RESPONDENTS

ON PETITION""FOR A:WRIT OF CERTIORARI TO

MONTANA SUPREME COURT

Brian D. Smith
AO # 3009410
Montana State Prison
700 Conley Lake Rd.
Deer Lodge MT,j 59722
i

FILED
SEP 1 9 2021

i ^

!
j

U

i

U.S.S.Ct. Rule 14(l)(a)
QUESTIONS PRESENTED

1.

Is a motion to withdraw guilty plea considered a "critical
Stage" requiring the assistance of counsel for a person
"too poor" to hire one at the following stages:
(a) Post-senticing, before written judgment is entered?
(b) Post written judgment, but before 60-day time to appeal?
(c) After 60-day time limit for direct appeal and before
1-year time limit to file motion to withdraw’ plea?

2.

Can state courts procedurally default a plea-convicted
petitioner for failing to timely file a notice of appeal,
pro se, while he/she is still under representation of courtappointed counsel?

3.

Can the state's highest court tell an.appellant who is forced
to proceed pro-se that he/she cannot raise IATC claims because
they cannot demonstrate that there is a record to support the
claims, and when the person finally obtains the necessary records
be procedurally defaulted for not appealing the claims?

4.

Can a petitioner's pro-se motion to withdraw guilty plea
claiming to be misled by court-appointed attorney be denied
for not producing evidence to show how he/she was prejudiced,
while attorney is still under court order to represent them?

5.

Can a state court create a conflict of interest by ordering
trial counsel to represent client on collateral review when
client is complaining of IATC?

6.

Can a state court grant immunity to a public defender for
revealing bad acts when responding to allegations of IATC?

7.

Is a:state's standard PLEA OF GUILTY AND WAIVER OF RIGHTS
form signed when substituting a plea of not guilty for a
guilty plea invalid for containing unfulfillable promisees?
If so, does it render the plea null and void requiring all
rights waived to be restored?

8.

Does a petitioner who misses the 1-year limit for postconviction
limited to a showing of actual innocence? Or would evidence
that he/she would have not pled guilty, but would have elected
to proceed to trial, based on newly discovered evidence be
sufficient?

9.

Is it a violation of the Equal Protection Clause of the 14th
Amendment when a person is discriminated against for having
been charged with an abhorent crime, thus becoming part of
hated group?

i

' U.S.S.Ct. Rule 14(l)(b)(i)

LIST OF PARTIES
All parties do not appear in the caption of the case on the
cover page. A list of all parties to the proceeding in the
court whose judgment is the subject of this petition are:
AUSTIN KNUDSEN
Montana Attorney General

KIRSTEN H. PABST
Missoula County Attorney

BRAD FJELDHEIM
Assistant Attorney General

SUZY BOYLAN '
Deputy .County Attorney

215 North Sanders
P.0. Box 201401
Helena.MT 59620-1401
406-444-2026

Missoula County Courthouse
200 W. Broadway St.
Missoula, MT 59802

; U.S.S.Ct. Rule 14'(li:)(b)(iii)
RELATED CASES
State v. Smith, No. DC 11-161 Montana State District Court,
Missoula County, Department 1, entered May 21, 2012.
State v. Smith, No. DC 11-161 Montana District Court, 7/26/1^.
Smith v. State, No. DV 16-698 Montana District Court, 2/14/17.
Smith v. State, No. DA 17-0146 Montana Supreme Court, 5/8/17.
Smith v. McTighe, No. OP 18-0532 Montana Supreme Court, 9/25/18.
Smith v. McTighe, No. 19-0503 Montana Supreme Court, 9/17/19.
Smith v. State, DV 16-698 Montana District Court, 1/13/20.
Smith v. State, DA 20-0102 Montana Supreme Court, 3/26/20.
Smith v. Green, DA 20-0288 Montana Supreme Court, 2/16/21.
Smith v. Sheehy, DA 20-0442 Montana Supreme Court, 3/17/21.
Smith v. State, DA 20-0102 Montana Supreme Court, 3/30/21.
Smith v. State, DA 20-0102 Montana Supreme Court, 3/24/21.
Smith v. McTighe, 19-70205, Ninth Circuit, 6/13/19.
Smith v. Frink, CV 14-83-M-DLC U.S.Dist. Mont. 11/13/20
Smith v. Frink, 20036099, Ninth Circuit, 5/21/21, 7/21/21.
ii

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2-5

STATEMENT OF THE CASE

6,7

REASONS FOR GRANTING THE PETITION

8-14

CONCLUSION

15

CERTIFICATE OF SERVICE

15

INDEX TO APPENDICES
APPENDIX A-

Montana Supreme Court, Order of denial

APPENDIX B-

Montana State District Court Denial of PCR2

APPENDIX 0-

Exhibits A-F to aid in understanding the Petition

APPENDIX D----- Exhibits A-F to aid in understanding the Petition
TABLE OF AUTHORITIES CITED
In re Gillham, 216 Mont. 279 (1985) ....................

10

Smith v. McTighe, OP 19-0503 (2019) ....................

13

Miller v. Kirkegard, CV-13-13-GF-DWM-JTL (2015)

13

State v. Usrey

10

MCA § 46-8-103

7

MCA § 46-16-105

11

Montana Constitution ............................................

7,10

United States Constitution ................................

6,7,13

United States Supreme Court Rule 10(a)(b)(c)

8,9

iii

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue
to review the judgment below.

OPINIONS BELOW
The opinion of the highest state court to review the
merits appears at Appendix A to the petition and is
reported at: 2021 MT 98N

404 Mont. 552, 485 P.3d 205.

The opinion of the Montana Fourth Judicial District
Court at Appendix B and is unreported.

JURISDICTION
The date on which the highest state court decided my
case was April 20, A copy of that decision appears
at Appendix A.

An extension of time to file a petition
of certiorari was granted by the United
Court due to Covid-19, to and including
(ORDER LIST 589 U.S.). Extension from 90

for a writ
States Supreme
Sept. 20, 2021.
to 150 days.

The jurisdiction of this Court is invoked under 28 U.S.C.
§ 1257(a).

1.

U.S.S.Ct. Rule 14(1)(f)
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

U.S. Constitution Amendment 6 Rights of the accused:
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by
an impartial jury of the State and district wherein
the crime shall have been commi.ted, which district
shall have been previously ascertained by law, and
to be informed of the nature and cause of the accu­
sation, to be confronted with the witnesses against
him, to have compulsory process for obtaining wit­
nesses in hi.s favor, and to have the Assistance of
Counsel for his defense.
U.S. Constitution Amendment 14:Section 1::
All persons born or naturalized in the United
States, and subject to the jurisdiction therof,
are citizens of the United States and of the
State wherein they reside. No State shall make
or enforce any law which shall abridge the pri­
vileges or immunities of citizens of the Uni­
ted States, nor shall any State deprive any
person of life, liberty,.or property, without
due process of law, nor deny ant person within
its jurisdiction the equal protection of the laws.

The Constitution of the State of Montana Article II Section 4;
The dignity of the human being is inviolable.
No person shall be denied the equal protection
of laws. Niether the state nor any,person, firm
corporation, or institution shal discriminate
against any person in the excersise of his civil
or political rights on account of race, color,
sex, culture, social origin or condition, or
political or religious ideas.
The Constitution of the State of Montana Art. II Section 17:
No person shall be deprived of life, liberty, or
property without due process of law.
The Constitution of the State of Montana Art. II Section 18:
The statel' counties, cities, towns, and all other
local government entities shall have no immunity
from suit for injury to a person or property,
except as may be specifically provided.by law
by a 2/3 vote of each house of the legislature.
2.

.U.S.S.Ct. Rule 14(l)(,f )
CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED
The Constitution of the State of Montana Art.II Section 19:
The priviledge of the writ of habeas corpus shall
never be suspended.
The Constitution of the State of Montana Art.II Section 24:
In all criminal prosecutions the accused shall have
the right to appear and defend in person and by
counsel; to demand the nature and cause of the
accusation; to meet the witnesses against him face
to face; to have;/the process to compel the' attenance of witnesses in his behalf, and a speedy public
trial by an impartial jury of the county or district
in which the offense is alleged to have been committed
subject to the right to have a change of venue for
any of the causes for which the defendant mat obtain
the same.
The Constitution of the State of Montana Art. II Section 26:
The.right of trial by jury is secured to all and
remain inviolate. But upon default of appearance
or by consent of the parties expressed in such a
manner as the law may provide, all cases may be
tri.ed without a jury or before fewer than the
number of jurors provided by law. In all civil
actions, two-thirds of the jury may render a
verdict, and verdict so rendered shall have the
same force and effect as if all have concurred
therein. In all criminal actions, the verdict
shall be unamimus.
Montana Code Annotaded (MCA) § 46-8-103(2)
If counsel determines that an appeal would be
frivolous or wholly withou merit, counsel shall
file a motion with the court requesting permition ■
toowithdraw. The motion must attest that counsel
has concluded that an appeal would be frivolous
or wholly without merit after reviewing the entire
record and researching applicable statutes., case
law, and rules and that the defendant has been
advised of counsel's decision and of the defendant's
right to file a response. The motion to withdraw
must be accompanied by a memorandum discussing any
issues that arguably support an appeal. The memorandum
must include a summary of the procedural history of
the case and any jurisdictional problems with the
appeal, together with appropiate citations to the
record and to pertinent stautes, case law, and pro-

3.

U.S.S.Ct. Rule 14 (l)(f)
CONSTITUIONAL AND STAUTORY PROVISIONS INVOLVED •
cedural rules bearing upon each issue discussed
in the memorandum. Upon filing the motion and memo­
randum with the court, counse's certificate of
mailing must certify that copies of each filing
were mailed to the local county attorney, the att­
orney genera's office, and the defendant. The def­
endant is entitled to file a response withthe court.
MCA § 46-16-105 Plea of guilty
(2) At any time before judgment or, except when
a claim of innocence is supported by evidence of
a fundamental miscarriage of justice, within 1 year
after judgment becomes final, the court may, for
good cause shown, permit the plea of guilty or nolo
contendere to be withdrawn and a plea of not guilty
substituted. A judgment becomes final for purposes
of this subsection (2):
(a) when the time for appeal to the Montana
expires;
(b) if an appeal has been taken to the Montana
supreme court, when the time for petitioning
the United States supreme court for review
expires; or
(c) if review is sought in the United States
supreme court, on the date that the court
issues its final order in the case.
MCA § 46-21-104 Contents of petition.
(1) The petition for postconviction relief must:
(c) identify all facts supporting the grounds
for relief set forth in the petition and have
attached affidavits, records, or other evidence
establishing the exisrence of those facts.
MCA § 46-21-105 Amendment of petition--waiver of grounds
for relief.
(2) When a petitioner has been afforded the opportunity
for a direct appeal of the petitioner's conviction,
grounds for relief that were or reasonably could have
been raised on direct appeal may not be raised, con­
sidered, or decided in a proceeding brought under this
chapter. Ineffective ass.or incompetence of counsel in
proceedings on an original or an amended original pet­
ition under this part may not be raised in a second
or subsequent petition under this part.

4.

U.S.S.Ct. Rule 14«(l)(f)
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED ;

MCA § 46-21-201 Proceedings on petition
(3)(c) The office of state public defender may not
assign counsel who has previously represented
the person at any stage in the case unless the
person and the counsel expressly agree to the
assighnment.
MCA § 46-22-101 Applicability of writ of habeas corpus
(2) The writ of habeas corpus is not available to
attack the validity of the conviction or sentence
of a person who has been adjudged guilty of an
offense in a court of record and has exhausted
the remedy of appeal. The relief under this
chapter is not available to attack the legality
of an order revokinga suspended or deferred sentence.

5.

U.S.S.Ct. Rule 14(1)(g)
STATEMENT OF THE CASE

, This case is essentially based on the Montana Supreme Court's
refusal to "march lock-step with the U.S. Supreme Court" in determ­

ining

the protections of the United States Constitution and using

deceptive practices to convince the accused to avoid trial and enter
a plea of guilty. Petitioner (Smith) was prevented from obtaining th£
necessary records for substantiating the claims, and then procedurally
defaulted from all atempts to withdraw his guilty plea, and subsequent
collateral review, for not including the records that he could not get.
The fact that all decisions by trial court and highest appellate
in Montana denying Smith claims for review/relief were denied for
not supplying records that he was denied access to, proved that Smith's
claims would have a different outcome

if he hadn't ;been denied the

effective assistance of counsel. Smith only had effective asistance
of counsel for three days at the very beginning of his underlying
original cause DC-11-161. Scott Spencer was originally appointed to
represent Smith on April 18, 2011. Smith told Spencer how he was not
clear on exactly what happened on April 02, 2021, when Smith assaulted
his girlfiend, because it happened less than eight hours after he
was released from Community Medical Center (CMC). Spencer told Smith
that based on what Smith told him, he was going to advise his boss
that he intended to use a defense of "Diminished Capacity". Smith
never saw or spoke with Spencer after that.
On April 21, 2021, public defender Katie Green met with Smith .

6.

U.S.S.Ct. Rule 14(l)(g)
STATEMENT OF THE CASE
Smith told Ms. G^reen what he had told Mr. Spencer. Green told Smith '
that in order to use the affirmative defense diminished capacity we
would have to obtain Smith’s medical records in relation to his
treatment for his attempted suicide prior to commiting the assault.
Green also told Smith that she was going to request that the Office
of the Public defender (OPD) approve funding for a "forensic mental
health evaluation". Green later

told Smith that the OPD had refused

the funds for a "forensic evaluation". Smith was not aware that the
OPD actually did approve the funding until Green filed an affidavit
in response to Smith’s IATC claims. The state argues that Smith
should have known that Green lied about the funding because the
forensic evaluation was never done. (See first PCR petition DV-16-698)
See also Appellant's Brief (BrPCR2) ppl-4. Ms. Green also never used
the release forms Smith signed so she could obtain his med records.
Now Smith's claims ihave all the appearence of violation of the
Equal Protection Clause of the 14th .Amendment of the U.S. Constittution supported by documented evidence. Montana courts have not
only refused to "march lock-step" with United States Supreme Court
(U.S.S.Ct.) interpretations of the U.S. Constitution (U.S.Const.),
the courts have refused to march lock-step with their own interpre­
tation of the Montana Constitution (Mt.Const.), and previous caselaw. Ms. Green completely ignored the statutory and constitutionally
mandated Anders Brief, which Montana has codified in MCA § 46-8-103.
Smith's circumstances are nothing new in Montana. The request
to withdraw as council has for the most part become up to the courtappointed • attorney , and valid claims of IATC are excused by the Mon­
tana courts by an invalid PLEA OF GUILTY AND WAIVER OF RIGHTS jf'orm.
7.

U.S.S.Ct. Rule 14(l)(ih)
REASONS FOR GRANTING THE PETITION

Question #1;

Is a motion to withdraw a guilty plea?

meets all

of the criteria of U.S.S.Ct. Rule 10(a), 10(b) and 10(c). The majority
of United States courts of appeals say that it is a "critical stage"
and state's highest courts are split on the question. As far as Mr.
Smith can tell from researching the matter, is Federal courts are in
a 8-4 split

with the majority in the affirmative. Although there is

a substantial variety of situations for withdrawing:a guilty plea, Smith
argues that the time in the proceedings is the key determinating
factor. Smith attempted to withdraw his plea right after sentencing,
fehesstate district court relied on elements of claim #2 of the information that was dismissed in agreement of the prosecutor and Smith
in an oral plea agreement. Smith was assured by his public defender
Katie Green that she would file an appeal if the sentence was based
on false information. The day after sentatnrg;. Katie Green ignored Mr.
Smith's request for help and mailed him a copy of the statute for
withdrawal of a guilty plea. She told him that he would have to do
it on his own

and that was the last time he heard from her despite

many attempts to contact her by mail and phone.
Petitioner prays that This Court Grants Certiorari, so that he may
explain further the questions presented. This Court has described a
"critical stage" :as any stage that could be prejudicial. This holding
gives states a lot of discretion

and without a Supreme Court decision

that specifically addresses motions to withdraw a plea of guilty in
the distinct circumstances, opens the door for abuse of discretion.
Federal law is more clear than state law, and for now, it depends
on what part of the country a person lives, for yes or no decisions.
8.-

U.S.S.Ct. Rulel4(l)(h)
1

REASONS FOR GRANTING THE PETITON

Question #2 meets all of the criteria in Rule 10. The state district
and the montana supreme court refuse to follow clearly established
Federal Law as determined by the United States Supreme Court as well
as 9th Circuit Court of Appeals holdings and montana supreme court
holdings in identical situations. Smith is not sure why montana courts
refuse to follow the law- in Smith's claims. He has provided documented
proof as to why he could not haver/raised sooner. This includes the
montana supreme court telling Smith when requesting permission to file
an out-of-time appeal that he could not raise the claims even if he
filed a notice of appeal on time because he could not demonstate that
there was a record explaining why his public defender refused to help
Smith file an appeal. The same claims were raised by Smith after he
finally had the records in 2018, and the montana supreme court told
him that the claims should have been raised in a direct appeal! Montana
refuses to attribute failure to epunale They continue to fault Smith.
This is the reason for questions 3 & 4, which also meet all of the
criteria

of Rule 10. Please see page 7 of Appellant's Brief.

Question #5 is well settled Federal Law, but the montana courts
again refuse to follow. A letter from Smith to:thedistrict court that,
was never filed, and a court order that Smith was never sent a copy of,
because public defender Green never withdrew as constitutionally
required and apparently ignored or forwarded to Smith was an order
for Green to assist him obtain the files he requested, was illegal,
because the district court knew Green was being accused of ineffective
assistance of counsel causing an unconstitutional conflict.
9.

U.S.S.Ct. Rule 14(1)(h)
REASONS. FOR GRANTING THE PETITION
In order for This Court to understand

question #6 claims of

Montana courts violating the state constitution by granting immunity
to public defenders are not simply bald accusations, please read the
following Concurrence by Mt.S.Ct. Judge Nelson on "Function Creep":
from State v. Usrey, 2009 MT 227, Tiff 46-47:
ff46-"indeed, in a form of "Function Creep" *fn 2, the
Gillham decision is now being cited for andbeing used
in ways not originally contemplated. Gillham has been,
for years, limited to postconviction/ineffective assi­
stance of counsel claims. *fn 3. Here however, the
State cites Gillham as authority in a motion to with­
draw guilty plea case. And in State v Patrick, 2009
MT 220N, Supreme Court Cause No. DA 08-0197, the Gill­
ham procedure was utilized in a judge-disqualification
claim. It appears that Gillham is on the slipery slope.
The State is now promoting and using Gillham as a com­
prehensive tool for breaching the defendant's attorney
client priveledge when doing so will aid in the prose­
cution of the State's case--and, unfortunately, the
trial courts and defense counsel are allowing this to
happen. I cannot agree with this approach."
*fn 2: "Function Creep" refers to the "expansion of
a program, system or technology into areas for which
it was not intended,"..."Function creep is precisely
what is happening with the "Gillham procedure."
*fn 3:See Heath v. State, 2009 MT 7, 348 Mont. 361,
202 P.3d 118; Marble v. State, 2007 MT 98, 337 Mont.
99, 169 P.3d 1148; Watson v. State, 2004 308N, 325
Mont. 391, 106 P.3d 132; Bone v. State, 284 Mont.
293. 944 P.2d 734, (1997); State v. Baker, 272 Mont.
273, 901 P.2d 54, (1995)
Originally, In re Gillham, 216 Mont. 279, 216 Mont. 279, 1985
Mont. LEXIS 795 was an Order allowing public defenders to "reveal
confidential information from Gillham" without facing disciplinary
proceedings or malpractice for revealing the CLIENTS information.
"Function Creep" has now spread to public defenders revealing bad acts
in their representation of the client. Basically

absolute immunity,,

which This Court's clearly established Federal Law prohibits.

10.

U.S.S.Ct. Rule 14(1)(h)
REASONS FOR GRANTING THE PETITION
Question #7 is the standard PLEA OF GUILTY AND WAIVER OF RIGHTS
form that Montana use is invalid because it is not only slightly
misleading, it contains a flat out lie.(Please see Appendix D) it
states under:
A-; CONSEQUENCES OF MY PLEA OF GUILTY
4)

I waive or
of guilty,
be limited
of my plea

In Montana

give up any chance to appeal a finding
and understand that any appeal would
to a determination on the voluntariness
of guilty."

in order to withdraw a person's guilty plea, they

must use Montana Code Annotated (MCA) § 46-16-105. Title 46 is the
criminal code, and chapter 16 is TRIAL. Smith was told by public
defender Katie Green that he had to do that on his own. Ms. Green
was still under statutory obligation to represent Smith until 60days after the written judgment was entered wich was another 11 days.
Ms. Green was obligated to consult with Smith about any appealable
issues. Ms. Green knew that Smith was alleging ineffective assistance
of counsel, and as a result, never:spoke to Smith again.
Since Smith had to file a pro se motion to withdraw his guilty
plea, the above quote has to be considered an unfufilable promise.
Smith was also told by another public defender, as well as the montana supreme court that he could not appeal the voluntariness of
his plea, making the waiver invalid.
After denying the right to appeal, Montana statute can procedural
default on all other attempts at relief. The state's claim in the
current petition that Smith could have timely raised the claim of
attorney abandonment might be true hadn't everyone said he couldn't.
11.

U.S.S.Ct. Rule 14(l)(h)
REASONS FOR GRANTING THE PETITION
The state carefully avoids the facts'that' Smith presented documented
proof that he was lied to prejudiciosly way before any issues of
appeal, and/or attorney abandonment. Smith provided documented proof
that he was abandoned BEFORE THE WRITTEN JUDGMENT was entered, which
makes states claims that Smith could have raised in his first postconviction are moot, due to structural, per-sereversible error.
Question #8 affects the whole United States. The cause and pre­
judice exception to excuse procedural default no longer seems to exist.
The governments now have a way to intentionally violate a person’s
constitutional rights, and then procedurally default the person, if
they cannot come up with evidence of innocence. Smith wanted to go to
trial because evidence existed to show that his actions were an anomaly
caused by an attempted drug overdose and being prematurely released
from the hospital. Smith could not have raised his claims earlier or
timely because he did not have an attorney and had to file a malprac*
tice claim against the doctors that prematurly released him. Smith
presented the state district court with medical records that showed
that he was misdiagnosed and that his doctor wrote in the discharge
summary, "Due to risks

I don’t feel confortable releasing him". This

was rejected by the district court because Smith "did not have an ex­
pert witness. Smith would of had an expert witness, if public defender
had not lied to Smith about geting aproval for one intentionally,
by telling Smith the OPD denied the request when it was approved. It
is ineffective assistance of counsel causing procedural default. Smith
prays that This Court will grant Certiorari and
will not be tollerated ..
12.

make clear that this

r
U.S.S.Ct. Rule 14(l)(h)
REASONS FOR GRANTING THE PETITION
Please consider the following Findings and Recomendations from
the Honorable U.S. Magistrate Judge John Johnston, Montana District
Great Falls Division from 2015

on the Montana State Appellate review,

process in Miller v. Kirkegard, CV-13-13-GF-DWM-JTJ: (2015)
u[D]efendants pursuing first-tier review...are
generally ill equipped to represent themselves
because they do not have a brief from counsellor
an opinion of the court addressing addressing
their claim of error." Martinez, 132 S.Ct. at
1317 (quoting Halbert v. Michigan, 545 U.S. 605,
617, 125 S.Ct. 2582, 162 L.Ed. 2d 552 (2205)
(internal quotation marks omitted) "The irony
of this situation is evident. When a record based
lATCmclaim is presented on direct appeal lacks
merit, the Montana Supreme Court denies it, and
that is that. Only when the claim is not meritless
does the Montana Supreme Court refer the appellant
to postconviction proceedings. Consequently, only
only potentially meritorious IATC claims are de­
ferred from direct appeal, where there is a right
to effective counsel, to postconviction proceeding,
where there is none. Because the manner in which
Montana law operates means that apetiti.oner with
potentially merirorious IATC claim loses the right
to effective counsel at the very stage where she
can develop the factual basis of the claim and
obtain a full and fair hearing of its merits, it
is hard to see why Montana should be exempt from
the rule of Martinez." "unlike civil complaints,
the postconvi.cti on statutes are demanding in
their pleading requirements." Ellenburg v Chase,
2004 MT 66 tl 12, 320 Mont. 315, 87 P.3d 473, 476
(Mont. 2004); see also Shegrud v. State, 2013 MT
164N U. 7, 370 Mont. 555, 311 P.3d 445; Kelly v.
State, 300 P.3d at 122, U 9; Doyle v. State, 2009
MT 105N UH 7-9. "A party alleging ineffective aasistance of counsel must come forward with specific
factual allegations that establish by a prepon­
derance of the evidence that a party is entitled
to relief." Ramsey v. State, 2009 MT 131N U 9
(citing Herman, 127 P.3d at 430, U 44)
See also page 6, Smith v. McTighe, OP 19-0503, 2019 Mont.
LEXIS 491, filed 9/17/2019.
Montana also rejects U.S.S.Ct. interpretation of 14th' Amend.
Due process right to counsel for first as-of-right appeal for pleaconvicted persons on first collateral review.
13.

U.S.S.Ct. Rule 14(1)(h)
REASONS FOR GRANTING THE PETITION
Both state and federal courts that stand firm on the procedural
defaults for meeting the one year time limit and requirements for second
and subsequent petitions for post-conviction or other collateral review,
make the fundamental constitutional right to counsel of little or no
affect for an indigent accused, "too poor" to hire an attorney, States
can purposely cause a person to miss the deadlines or other requirements
and they are home free.
Montana continues to blatently enforce it's laws in a way that
"poisons public confidence" in the judicial system. Montana attorneys
are afraid to go againt the state and in Smith's case, undoubtedly was
working with the prosecutor. The state has a combination of statutes
that effectively avoids going to trial

not allowing claims of IATC by

granting immunity and forcing the person to represent his or her self.
Denies records necessary, and lies to defendant's about possible affir­
mative defenses and so on.
Montana's position in the current denial of relief is stating that
Smith could have and should have raised his issues in a timely appeal
or timely petition for PCR, when it is his attorney, the state district
court the state's highest court, clerks of court and court reporter
that made it impossible to dp so. This should not be allowed to coninue.
Granting of this petition is necessary to bring these actions out of
the dark and into the light. Smith knows that he committed a heinous and
horrible act. All he-ever wanted, was the honest opinion of a forensic
psychiatrist as to his state of mind at the time of the crime and to ask
a jury of his peers what they believe should happen. Smith was denied
those basic rights.
14.

CONCLUSION
Petioner prays that This Court will Grant this petition for
Writ of Certiorari, to further adress the issues presented.

UNSWORN DECLARATION
I, Brian D. Smith, declare under penalty of purjury that the
foregoing is true and correct. Executed on September 16, 2021.

Brian D. Smith
Petitioner, Pro-Se

CERTIFICATE OF SERVICE
I, Brian D. Smith, hereby Certifies that a true copy of this
Motion for Leave in Forma Pauperis and Petition For A Writ Of
Cev Certiorari has been mailed via First-Class Postage to:
AUSTIN KNUDSEN
Montana Attorney General
BR.AD FJELDHETM
Assistant A.G.
215 North Sanders
P.iOi 'Box 201401
Helena, MT 59620-1401
406-444-2026

Brian D. Smith
Petitioner, Pro Se

